No. 19-847

 

 

In THE
Supreme Court of the United States

JONATHAN REISMAN,

Petitioner,
v.

ASSOCIATED FACULTIES OF THE UNIVERSITY OF MAINE, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF OF AMICUS CURIAE NATIONAL
RIGHT TO WORK LEGAL DEFENSE
FOUNDATION IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,247 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 4, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
